LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 16, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-386: MONROE COUNTY COMMISSION V. A.A. NETTLES, SR. PROPERTIES
LIMITED AND EULA LAMBERT BOYLES
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition
on behalf of Respondents A.A. Nettles, Sr. Properties Limited and Eula Lambert Boyles
referenced above contains 6,121 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 16th day of December 2019.

